TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Additional Actions Are Needed to
                     Realize Benefits of the Tax Exempt and
                       Government Entities Reporting and
                         Electronic Examination System



                                        January 29, 2010

                              Reference Number: 2010-10-020




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 29, 2010


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Actions Are Needed to Realize
                             Benefits of the Tax Exempt and Government Entities Reporting and
                             Electronic Examination System (Audit # 200810035)

 This report presents the results of our review to assess: 1) whether implementation of the Tax
 Exempt and Government Entities Reporting and Electronic Examination System (TREES) led to
 expected improvements in the examination process and 2) whether appropriate actions are being
 taken to improve the TREES. The former Commissioner, Tax Exempt and Government Entities
 (TE/GE) Division, requested this review, which was part of the Treasury Inspector General for
 Tax Administration’s Fiscal Year 2009 Annual Audit Plan coverage under the major
 management challenge of Modernization.

 Impact on the Taxpayer
 The TREES is a TE/GE Division-wide information system that was developed to provide a case
 management system for TE/GE Division employees and to improve the examination process.
 While some improvements have been made to the System since its release, the TE/GE Division
 has not realized the expected improvements in the examination process due to the difficulties
 experienced in the deployment of the TREES and because many planned capabilities were not
 delivered because of budget cutbacks. If additional actions are not taken by TE/GE Division
 management, the Federal Government will not receive the highest possible return from the
 $18.7 million of taxpayer funds spent on developing and implementing the System.
                             Additional Actions Are Needed to Realize Benefits
                                of the Tax Exempt and Government Entities
                               Reporting and Electronic Examination System



Synopsis
The $18.7 million of taxpayer funds spent on developing and implementing the TREES has yet
to lead to expected improvements in the TE/GE Division examination process. The
TE/GE Division deployed the System to allow revenue agents and managers to work cases while
electronically tracking the inventory of cases throughout all stages of the examination process.
However, due to budget cutbacks some of the planned functionalities needed to develop the
TREES as a complete case management system were not implemented. In addition, the System
encountered significant issues after deployment and employees, in general, have not been using
the System effectively. If these issues are not resolved, expected benefits will not be achieved.
The TREES was fully deployed Division-wide in April 2008 to all TE/GE Division examination
employees, but experienced hardware and software issues that resulted in poor or no access to
the System. For example, users were unable to access the TREES after a software upgrade in
October 2008. For approximately 8 weeks, users had to revert to a paper-intensive process while
waiting for the System to come back online. Users were frustrated and noted that when the
System was down it was very burdensome and in most instances examination cases were not
closed until the System came back online. TE/GE Division and Modernization and Information
Technology Services organization personnel took action to improve access, response time, and
functionality of the System, and discussions with users indicated that access to and response time
of the System was much better after these changes had been made.
The TREES Business Case, dated November 2007, identified four performance measures 1 to
determine the success of the TREES. While the System was fully deployed in April 2008, the
TE/GE Division did not begin analyzing its performance measures until the first quarter of
Fiscal Year 2009. This is understandable due to the difficulties experienced after the System was
deployed, including the October 2008 update that caused the System to be taken offline in the
first quarter of Fiscal Year 2009. However, based on our observations, we are concerned that the
envisioned benefits are not being realized.
As the Internal Revenue Service awaits funding to develop and expand the TREES as part of the
Reporting Compliance Case Management System, we believe it can take steps to more
effectively use the System and make some software improvements. Until the TREES includes
critical pieces of functionality, employees receive additional training on how to use the System,
and employees accept and use the TREES more fully, the TE/GE Division will not transform
examinations from a paper-intensive process to an automated process and begin realizing more
of the expected benefits of the TREES.



1
  Performance measures are estimates of results expected for a given time period. They are included in plans as
indicators of what an organizational unit wants to achieve.
                                                                                                                  2
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System



Recommendation
We recommended the Commissioner, TE/GE Division, develop an action plan that addresses the
issues identified in this report and other issues the TE/GE Division has identified. This will
allow the TE/GE Division to gain increased acceptance and fuller use of the TREES.

Response
The Commissioner, TE/GE Division, agreed with our recommendation and provided planned
actions to address it. By July 30, 2010, the TE/GE Division will develop an action plan to
address the issues identified in this report, including providing additional information and
training to TREES users. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the Internal Revenue Service managers affected by the
report recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                3
                                 Additional Actions Are Needed to Realize Benefits
                                    of the Tax Exempt and Government Entities
                                   Reporting and Electronic Examination System




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Several Significant Hardware and Software Issues Have Been Overcome..Page 5
          An Action Plan Is Needed to Improve the Use of the System and
          Make Progress Towards Obtaining Expected Benefits ................................Page 6
                    Recommendation 1:........................................................Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Potential Opportunities for Improvement ............................Page 17
          Appendix V – Management’s Response to the Draft Report .......................Page 20
        Additional Actions Are Needed to Realize Benefits
           of the Tax Exempt and Government Entities
          Reporting and Electronic Examination System




                 Abbreviations

IRS        Internal Revenue Service
TE/GE      Tax Exempt and Government Entities
TIGTA      Treasury Inspector General for Tax Administration
TREES      Tax Exempt and Government Entities Reporting and Electronic
           Examination System
                             Additional Actions Are Needed to Realize Benefits
                                of the Tax Exempt and Government Entities
                               Reporting and Electronic Examination System




                                             Background

The Tax Exempt and Government Entities Reporting
and Electronic Examination System (hereafter referred           The TREES was designed to
to as the TREES or the System) is a system development              allow TE/GE Division
                                                              employees to assign, examine,
project undertaken by the Tax Exempt and Government
                                                                  close, review, and store
Entities (TE/GE) Division to modernize operations                  examination casework
across its Division. The TREES was envisioned to                        electronically.
provide a single electronic case and inventory
management system across the TE/GE Division. 1 The
System was designed to allow TE/GE Division employees to assign, examine, close, review, and
store examination 2 cases electronically, reducing the cost and inefficiencies of manually
conducting examination casework using paper. Prior to the TREES, the TE/GE Division
workforce used examination workcenters that were labor intensive and involved manual
processes. The workcenters were on obsolete technology, minimally maintained and not fully
integrated with other Internal Revenue Service (IRS) computerized systems, which meant
employees had to use multiple systems to accomplish their work.
The TREES will provide more than 1,500 TE/GE Division employees3 with electronic access to
account data on their computers and a greater volume of IRS information to enhance
examination case management and performance. Essentially, the TREES was designed to allow
examination cases and research information to be assigned to revenue agents 4 electronically.
This would allow examination cases to be created and completed more quickly. In addition,
when errors are identified in the examination workpapers, electronic workpaper files can be
returned to revenue agents faster for correction, with electronic messages within the TREES to
explain why the case is being returned. The TREES was also designed to generate messages so
revenue agents are made aware when examination cases are assigned or closed. Case inventories
can also be sorted and organized based on the age of the examination case (i.e., how long it has
been in the revenue agent’s inventory).


1
  The TE/GE Division includes the Exempt Organizations, Employee Plans, and Government Entities functions.
The Government Entities function includes the Federal, State, and Local Governments, Indian Tribal Governments,
and Tax Exempt Bonds offices.
2
  An Examination involves a review of an entity’s books, records, and other data to develop all significant issues;
ensure a proper determination of exempt status, qualification, or tax liability where appropriate; and determine that
applicable statutory requirements are satisfied.
3
  These employees include: revenue agents, tax auditors, tax law specialists, front-line auditors, researchers,
analysts, managers, tax examiners, and clerks.
4
  Revenue agents in the TE/GE Division’s Employee Plans, Exempt Organizations, and Government Entities
functions conduct examinations to ensure that entities comply with all applicable tax laws.
                                                                                                              Page 1
                            Additional Actions Are Needed to Realize Benefits
                               of the Tax Exempt and Government Entities
                              Reporting and Electronic Examination System



Based on the overall design, the TREES was intended to electronically provide Division-wide
inventory control, compliance testing, tax computation, education and outreach, and team
examination monitoring in one workcenter. The expected benefits of the TREES project
included providing:
    •   Automated compliance tests and tax computations to improve accuracy of data.
    •   Decreased length of time an examination is open by electronically working the case more
        efficiently.
    •   Appropriate tools and relevant training to increase employee satisfaction.
    •   A quality work environment to increase examiner, researcher, analyst, management, and
        clerical productivity.
    •   Onsite examination planning and collaboration tools to increase team examination
        productivity among team coordinators and their team members.
    •   Enhanced issue tracking to identify productivity issues that future examinations should
        focus on.
    •   Enhanced data gathering to monitor compliance activities.
    •   Reduced cost by eliminating the dependency on multiple inventory control systems.
The TE/GE Division began planning for the TREES in Fiscal Year 2002. In April 2008, the
TREES was fully deployed and in October 2008, the TREES was integrated with the Reporting
Compliance Case Management System. 5 Through Fiscal Year 2008, a total of $18.7 million had
been spent on the TREES. However, as shown in Figure 1, the TREES was developed over
many years and encountered various setbacks during its development and early implementation.




5
  The Reporting Compliance Case Management System will consolidate the nonmajor investments, the TREES and
the TE/GE Electronic Case Compliance System, into a new major information technology investment. The TREES
officially merged into the Reporting Compliance Case Management System, along with the TE/GE Electronic Case
Compliance System, in October 2008. However, for the purpose of this report, we will refer to the System as the
TREES, not the Reporting Compliance Case Management System.
                                                                                                        Page 2
                             Additional Actions Are Needed to Realize Benefits
                                of the Tax Exempt and Government Entities
                               Reporting and Electronic Examination System



                           Figure 1: TREES Milestones and Setbacks
              Date                                                  Action Item
March 2002                          Improvement Project Plan for the TREES prepared and submitted.
January 2003                        TE/GE Division management approved funding for the TREES and
                                    initiated development of the System.
September 2003                      TREES Exhibit 300 6 approved.
May–June 2006                       TREES Release 1.00 Pilot initiated. Pilot was suspended to correct
                                    critical defects. Taxpayer data were being corrupted. Additional
                                    8 weeks of testing was conducted.
September 2006 – March 2007         TREES Release 1.20 Pilot initiated.
April 2007                          TREES Release 2.0 Pilot initiated.
May 2007                            TREES Release 2.0 Division-wide deployment began.
October 2007                        TREES Release 2.01 Pilot initiated.
October–November 2007               Training classes cancelled because of software defects in
                                    TREES Release 2.01.
January 2008                        TREES Release 2.011 updated.
April 2008                          The TREES was fully deployed.
October 2008                        TREES Release 2.02 updated. The System experienced major issues
                                    and was taken offline for approximately 8 weeks. Many manual
                                    workarounds were adopted for the examination process.
January 2009                        TREES Release 2.021 updated.
Source: TREES project documentation and interviews with TE/GE Division personnel.

This audit was being conducted while changes were being scheduled to the TREES. Any
changes that have occurred since we concluded our interviews in July 2009 are not reflected in
this report. As a result, this report may not reflect the current status of the TREES.
This review was performed at the TE/GE Division National Headquarters Business System
Planning function office in Washington, D.C., during the period September 2008 through
August 2009. In addition, the Treasury Inspector General for Tax Administration (TIGTA)
conducted site visits to various TE/GE Division offices in Baltimore, Maryland;
Brooklyn, New York; Oklahoma City, Oklahoma; Nashville, Tennessee; and Austin and
Dallas, Texas. We also conducted telephone interviews with TE/GE Division employees in

6
  The Exhibit 300 is also known as the Capital Asset Plan and Business Case. It is used as a one-stop document for
a myriad of information technology management issues such as business cases for investments, agency
modernization efforts, and overall project management.
                                                                                                           Page 3
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System



Santa Ana, California; Downers Grove, Illinois; Chesterfield, Missouri;
Cheektowaga, New York; Independence, Ohio; Philadelphia, Pennsylvania; and Ogden, Utah.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                         Page 4
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System




                                Results of Review

The $18.7 million of taxpayer funds spent on developing and implementing the TREES has yet
to lead to expected improvements in the TE/GE Division examination process due to the
difficulties experienced in the deployment of the TREES and because many planned capabilities
were not delivered. The TE/GE Division deployed the System to allow revenue agents and
managers to work cases while electronically tracking the inventory of cases throughout all stages
of the examination process. However, due to budget cutbacks some of the planned
functionalities needed to develop the TREES as a complete case management system were not
implemented. In addition, the System encountered significant issues after deployment and
employees, in general, have not been using the System effectively and consistently. If these
issues are not resolved, expected benefits will not be achieved.
While steps have been taken to improve the System, TE/GE Division management will need to
take additional actions to ensure that the implementation of the TREES transforms the
TE/GE Division’s examination process from one that is paper-intensive and different within each
functional area to a TE/GE Division-wide system where all TE/GE Division employees involved
in examinations can efficiently assign, examine, close, review, and store examination cases
electronically. If additional actions are not taken by TE/GE Division management, the Federal
Government will not receive the highest possible return from the $18.7 million of taxpayer funds
spent on developing and implementing the System.

Several Significant Hardware and Software Issues Have Been
Overcome
The TREES was fully deployed Division-wide in April 2008 to all TE/GE Division examination
employees, but experienced hardware and software issues that resulted in poor or no access to
the System. However, the TE/GE Division took actions to improve access, response time, and
functionality of the System.
Initially, the IRS’ computer network could not accommodate the changes made to the System
during the various releases. Specifically, the TREES was very slow and at times would freeze
up, not allowing the users to work effectively. However, the IRS upgraded computer circuits in
8 offices and purchased approximately 750 new computers for TE/GE Division employees in the
fall of 2008.
In addition, users were unable to access the TREES after a software upgrade in October 2008.
As a result, the System was taken offline for approximately 8 weeks. Compounding these
problems, while the upgrade was being fixed, the TREES hardware was not sized sufficiently to
allow developers to reverse the changes, which would have allowed TE/GE Division employees

                                                                                          Page 5
                             Additional Actions Are Needed to Realize Benefits
                                of the Tax Exempt and Government Entities
                               Reporting and Electronic Examination System



to use the prior version of the System. This meant that for approximately 8 weeks users had to
revert to a paper-intensive process while waiting for the System to come back online. Users
were frustrated and noted that when the System was down it was very burdensome and in most
instances examination cases were not closed until the System came back online.
TE/GE Division and Modernization and Information Technology Services organization
personnel took action to correct the issues, including revising the process used to recognize users
(i.e., passwords), developing a solution to correct user’s access issues, and allowing more time to
complete the software conversion process. These actions were completed in November 2008,
after which TE/GE Division examination employees could use the System again. Discussions
with users 7 indicated that access to and response time of the System was much better after these
changes had been made.
In January 2009, the TREES was updated to revise computer codes, improve communication
between users’ computers and the central database, and improve interactions with another
IRS computer system. In addition, the TE/GE Division is planning to acquire additional
hardware that will provide it with the capability to reverse changes if it experiences the same
types of issues when upgrading the System in the future. Specifically, if the upgrade does not
work properly, this new capability will allow the TE/GE Division to go back to the prior version
of the System without reverting to manually intensive paper processing of examination cases.
While steps are being taken to improve the System, we believe the IRS needs to take additional
actions to use the System more effectively and achieve more of the benefits initially envisioned.

An Action Plan Is Needed to Improve the Use of the System and Make
Progress Towards Obtaining Expected Benefits
The TE/GE Division defined the benefits it expected to receive for its investment in the TREES
as part of its business case and defined performance measures 8 for evaluating the positive impact
the deployment of the TREES would have on the TE/GE Division. We are concerned that
performance measures will not be achieved because planned capabilities were not delivered and
the System is not yet being used effectively. As noted previously, the initial implementation of
the TREES encountered significant problems. In addition, training for some users was
inadequate or poorly timed. As the IRS awaits funding to develop and expand the TREES as
part of the Reporting Compliance Case Management System, we believe the IRS can take steps
to more effectively and consistently use the System and make some software improvements to
begin realizing more of the benefits that were envisioned for the TREES.



7
  We interviewed 70 TE/GE Division employees from December 2008 through March 2009.
8
  Performance measures are estimates of results expected for a given time period. They are included in plans as
indicators of what an organizational unit wants to achieve.
                                                                                                            Page 6
                          Additional Actions Are Needed to Realize Benefits
                             of the Tax Exempt and Government Entities
                            Reporting and Electronic Examination System



The TREES may not be currently achieving its performance measures
The TREES Business Case, dated November 2007, identified four performance measures to
determine the success of the TREES. While the System was fully deployed in April 2008, the
TE/GE Division did not begin analyzing its performance measures until the first quarter of
Fiscal Year 2009. This is understandable due to the difficulties experienced after the System was
deployed, including the October 2008 update that caused the System to be taken offline in the
first quarter of Fiscal Year 2009. Based on our observations, we are concerned that the
envisioned benefits are not being realized. Figure 2 provides details of our observations.
               Figure 2: Performance Measures and TIGTA Observations

    TREES Performance                                     TIGTA Observations
        Measures

Dollars saved through               We determined that TE/GE Division examination employees
productivity enhancements –         were still using many manual processes and were using
An increase in productivity and     multiple inventory control systems to track and reconcile
cost savings measured in            examination cases.
dollars through the reduction of
manual processes.

Customer [employee]                 Employees were not consistently using the TREES to create
satisfaction – An increase in       and store examination workpapers. Instead, users were
user satisfaction with the          creating examination workpapers outside of the TREES and
examination process due to          copying the workpapers into the System at the end of an
more efficient processes.           examination. Users believed it took longer to work within the
                                    TREES, which makes the examination process less efficient.

Length of time a case is open –     Because the System was not available for almost 8 weeks
A decrease in the time              starting in October 2008, it is difficult to judge the impact of
measured in days used to            the System on the length of time cases remain open. However,
conduct an examination.             employees interviewed in early Calendar Year 2009 stated the
                                    TREES was not leading to quicker case resolution.

Number of electronic cases          The TREES may not contain a complete record of open
stored – An increase in the         examination cases. In addition, some employees are
number of examination cases         maintaining both a paper and electronic copy of examination
stored electronically.              cases.
Source: TREES Business Case, TIGTA analyses, and TE/GE Division Business Performance Review.

Until the TREES includes critical pieces of functionality, employees receive additional training
on how to use the System, and employees accept and use the TREES more fully, the
                                                                                               Page 7
                                Additional Actions Are Needed to Realize Benefits
                                   of the Tax Exempt and Government Entities
                                  Reporting and Electronic Examination System



TE/GE Division will not transform examinations from a paper-intensive process to an automated
process and begin realizing more of the expected benefits of the TREES.

The TREES does not currently include all planned capabilities
While we are concerned that performance measures are not currently being met partially due to
acceptance and usage, we are also aware that some of the benefits initially envisioned for the
System are not being realized because many of the planned capabilities were not delivered. We
identified approximately 105 high-level capabilities that the TREES project should have
provided in its various releases (Release 1 through Release 2.011). We evaluated 90 9 of
105 TREES capabilities to determine if the capability was delivered. We determined that
38 (42 percent) of 90 promised capabilities were “fully” delivered. However, we also found that
38 (42 percent) of the 90 were “not delivered” and 14 (16 percent) of the planned capabilities
were only “partially” delivered. Most of the capabilities that were “partially delivered” or “not
delivered” had to be foregone due to budgetary constraints. A breakdown of the status of the
90 capabilities is shown in Figure 3.
                                 Figure 3: Status of TREES Capabilities




                                                                          Fully Delivered
                       38                                       38        Capabilities
                                                                          Partially Delivered
                                                                          Capabilities
                                                                          Undelivered Capabilities




                                           14




           Source: TIGTA analyses based on the TREES Business System Requirements Report, Release 1 through
           2.011, dated November 29, 2007, and discussions with the TREES Project Team and TE/GE Division
           personnel.

Partially delivered or undelivered capabilities pertain to issue management, trend analysis, case
building, performing tax computations, allowing multiple users to work one examination case,

9
    Fifteen capabilities were out of the scope of our review.
                                                                                                      Page 8
                            Additional Actions Are Needed to Realize Benefits
                               of the Tax Exempt and Government Entities
                              Reporting and Electronic Examination System



time reporting, and automatically generating specific examination workpapers (e.g., letters,
forms, and revenue agent reports). Some of these capabilities pertain to core examination
processes. There is no development funding for the TREES for Fiscal Years 2009 and 2010, but
funding is anticipated for Fiscal Year 2011 and beyond to allow the TREES (now included in the
Reporting Compliance Case Management System) to deliver capabilities that were originally
planned for the System. Examples of specific capabilities that were not delivered include:
     •   Issue management and trend analysis functions. Without these functions, the ability to
         track issues, perform trend analyses, and better allocate resources is diminished.
     •   Case management reports or accomplishment reports. Without these reports, there is a
         lack of efficient reporting capabilities and ability to extract data from the System. Users
         will have to continue to rely on independent databases for management information
         reporting and quality measurement reporting.
     •   Quality review process. 10 Without this process, management will not have the ability to
         electronically identify trends, problems areas, training needs, and opportunities for
         process improvements.
     •   Access to consistent automated tax computation capabilities. Without this access, the
         TREES lacks the ability to calculate consistent tax computations for taxes commonly
         assessed in the TE/GE Division. This capability would enhance the accuracy and
         reliability of the data.
While major changes to the System are not possible until funding becomes available, we believe
opportunities exist to change business processes and improve the System software, which could
help achieve more benefits and lead to the transformation envisioned for the examination
process.

Changing business processes to more effectively use the TREES could lead to
additional benefits being realized
Our interviews of 70 TE/GE Division employees from December 2008 to March 2009 across
each of the functional areas identified differences in how the functions were implementing the
TREES and issues related to underutilizing the System. The TE/GE Division needs to take
action to help achieve the benefits of the System without waiting for future upgrades that are
planned for the Reporting Compliance Case Management System. Specific issues we identified
include:
     •   In some instances, the TREES was being used to track only the flow of examination cases
         from one stage of the examination process to the next, instead of using the System as an

10
 The quality review process provides a method to monitor, measure, and improve the quality of examination case
work.
                                                                                                        Page 9
                             Additional Actions Are Needed to Realize Benefits
                                of the Tax Exempt and Government Entities
                               Reporting and Electronic Examination System



         automated system where all aspects of the examination process could be completed and
         reviewed electronically. Specifically, some users brought examination workpapers into
         the System at the end of the examination, instead of when they were created. Many users
         obtained necessary forms, letters, and templates from shared drives and other locations
         instead of from the System itself. Using the forms, letters, and templates on the System
         would ensure better consistency in the examination process. In addition, many users
         were duplicating efforts by maintaining both paper and electronic files, some at the
         request of the manager.
     •   Most users indicated they did not have access to scanners to convert paper documents
         into an electronic format. As a result, users could not store certain information in the
         System and the System was being underutilized.
     •   Some users indicated that additional guidance was needed about the type of information
         that should be included in the examination workpapers. For example, one manager
         indicated that he did not require paper employee retirement plans to be included in the
         workpapers. He believed that annotating the workpapers indicating that the employee
         had reviewed the retirement plan would be sufficient. Other managers required
         employees to include the retirement plans in the workpapers. Unless additional guidance
         is issued, employees will not know what type of case file information should be stored
         electronically. This guidance would be helpful prior to providing users with scanners.
     •   Many users expressed a need for additional information or training related to System
         capabilities. This need seemed to stem from frustration over what users believed the
         System was supposed to do and what was actually delivered. Other users were unaware
         of the System capabilities. Unless users are aware of the System’s current capabilities
         and significant capabilities that are added to the System, they will not fully use the
         System.
     •   Multiple inventory tracking systems were maintained and reconciled. TE/GE Division
         employees used multiple inventory tracking systems because many of them lacked
         confidence in the TREES. Maintaining multiple inventory tracking systems is a
         duplication of effort and an inefficient use of limited TE/GE Division resources. As we
         were concluding our audit work, TE/GE Division management informed us that steps
         were being taken to eliminate inventory tracking systems that were no longer needed.
     •   Users perceived that access to the TREES case library 11 was too limited and did not allow
         them to obtain data on open or closed examination case files. In some instances, this
         affected the ability of groups to efficiently complete their work because they had to use



11
  The case library refers to a central electronic warehouse of all TE/GE Division open and closed examination
cases.
                                                                                                         Page 10
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System



       other sources or rely on others with access to the case library to obtain examination
       information.
   •   Although the TREES has the ability to automatically create cases and build the
       examination case files using data from another IRS computer system, some offices
       manually created cases on the System and manually built their examination cases (returns
       and research data) either on the System or in a paper file. Users believed that these
       approaches caused fewer errors or were less time consuming. As a result, the System
       may be underutilized.
   •   Employees lacked guidance about what types of activities should be tracked on the
       TREES. For example, some offices included compliance checks, customer assistance,
       and education and outreach activities efforts on the TREES while others did not use this
       functionality.
   •   TE/GE Division examination functions maintained other databases. For example, during
       our interviews TE/GE Division employees identified 15 databases used to track issues or
       results related to referrals, examination results, and quality review data. Management
       needs to review the type of information stored on other databases and determine whether
       the information can be stored on the TREES to minimize duplication of effort and
       inefficient use of limited resources.
   •   Although the TE/GE Division developed a uniform way of identifying or naming
       individual examination workpapers on the TREES, it was not being used consistently.
       Without a uniform way of naming files, it is more difficult to review examination case
       files.
Figure 1 in Appendix IV contains a complete list of the opportunities for improvement and ideas
on addressing these issues.

Making system improvements to the TREES software could also lead to
additional benefits being realized
In addition to identifying opportunities to improve work processes and users’ experiences with
the TREES, we identified areas where improvements could be made to the TREES software.
Based on our interviews with TE/GE Division employees, we determined that several System
improvements, if implemented, would enable the TE/GE Division employees to use the System
more efficiently. These System improvements are:
   •   Allowing the users to create subfolders (groups of files) within the TREES to organize
       examination case data more efficiently rather than having the workpapers all in one
       inclusive folder. This will make it easier for users to locate and review specific
       examination workpapers.


                                                                                          Page 11
                              Additional Actions Are Needed to Realize Benefits
                                 of the Tax Exempt and Government Entities
                                Reporting and Electronic Examination System



     •   Creating one examination case file to organize quarterly employment taxes, instead of
         bringing each quarter into the TREES as a separate case. This will allow users the ability
         to work the case more efficiently by compiling all employment tax returns for the year as
         a single file.
     •   Including additional pre-populated forms 12 to complete work more efficiently within the
         System.
     •   Minimizing errors related to information being shared between the TREES and the Audit
         Information Management System. 13 For example, users reported inconsistencies on both
         systems and, as a result, users were reconciling data between the two systems. While
         manual workarounds were implemented, workarounds slow down case processing.

Recommendation
Recommendation 1: The Commissioner, TE/GE Division, should develop an action plan to
address the issues identified in this report and other issues the TE/GE Division has identified, as
well as reeducate and train TE/GE Division users. This will allow the TE/GE Division to gain
increased acceptance and fuller use of the TREES, which would lead to more attainment of the
System benefits.
         Management’s Response: IRS management agreed with this recommendation. By
         July 30, 2010, the TE/GE Division will develop an action plan to address the issues
         identified in this report, including providing additional information and training to
         TREES users.




12
   Pre-populated forms contain existing information from IRS computer systems which eliminates the need to
manually input these data.
13
   A computer system used by the TE/GE Division to control returns, input assessments/adjustments to the Master
File, and provide management reports. It provides inventory and activity controls of active examination cases by
tracking the location, age, and status of each case. The Master File is the IRS database that stores various types of
taxpayer account information. This database includes individual, business, and employee plans and exempt
organizations data.
                                                                                                              Page 12
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System



                                                                                  Appendix I

       Detailed Objectives, Scope, and Methodology

Our overall objectives of this review were to assess: 1) whether implementation of the TREES
led to expected improvements in the examination process and 2) whether appropriate actions are
being taken to improve the TREES. To accomplish our objectives, we:
I.     Determined whether required TE/GE Division personnel (within all five offices) have
       access to and use the TREES.
II.    Identified the System capabilities scheduled to be delivered for the TREES project and
       determined whether they were delivered.
       A. Obtained documentation detailing the various versions/releases of the TREES and
          identified the capabilities each version/release was to provide TE/GE Division
          personnel.
       B. Interviewed applicable TE/GE Division personnel from various TE/GE Division
          functions (within all five offices and the Business Systems Planning office) and
          obtained documentation to determine whether expected capabilities were delivered as
          promised.
       C. Analyzed the information gathered in Steps II.A., II.B., and III. to determine whether
          expected capabilities were delivered as promised.
III.   Determined whether the TE/GE Division functions were getting the expected benefits
       from the TREES.
       A. Obtained documentation and identified the expected benefits of the TREES.
       B. Determined whether measures were in place (and being monitored) that would allow
          management to ascertain whether expected benefits are being achieved.
       C. Determined whether expected benefits were being achieved by reviewing available
          documentation.
IV.    Identified post-implementation System issues and determined whether these issues were
       being addressed.
       A. Analyzed information gathered in our interviews in Step II.B. to identify
          post-implementation System issues.
       B. Determined whether TE/GE Division personnel addressed or are addressing identified
          post-implementation System issues.

                                                                                         Page 13
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objectives: the TE/GE Division’s approved
systems development documentation, the expected capabilities and benefits of the TREES, and
TE/GE Division procedural documentation. We evaluated these controls by interviewing
management and other TE/GE employees who use the TREES and reviewing expected
capabilities and benefits of the System.




                                                                                        Page 14
                      Additional Actions Are Needed to Realize Benefits
                         of the Tax Exempt and Government Entities
                        Reporting and Electronic Examination System



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
Margaret A. Anketell, Lead Auditor
Theresa M. Berube, Senior Auditor
Steve T. Myers, Senior Auditor
William Simmons, Senior Auditor
Donald J. Martineau, Auditor




                                                                                  Page 15
                      Additional Actions Are Needed to Realize Benefits
                         of the Tax Exempt and Government Entities
                        Reporting and Electronic Examination System



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Business Systems Planning, Tax Exempt and Government Entities Division SE:T:BSP
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 16
                        Additional Actions Are Needed to Realize Benefits
                           of the Tax Exempt and Government Entities
                          Reporting and Electronic Examination System



                                                                                  Appendix IV

           Potential Opportunities for Improvement

Although the TE/GE Division currently does not have the funding to add all the capabilities to
the TREES to make the System the primary workcenter for the examination process,
opportunities exist that would improve the System. Figure 1 provides a list of issues we
identified during our audit and potential opportunities for addressing each issue.
            Figure 1: TREES Issues and Opportunities for Improvement

         Issue Identified                    Potential Opportunities for Improvement
  Many TREES users are using the         •   Phase in the mandate to use the System as a case
  System primarily to track the              management system, in addition to an inventory
  flow of the examination cases              control system, after successfully rolling out the
  (inventory control) from one               October 2009 System release and successfully
  stage of the examination process           testing the ability to rollback the System to a
  to the next, instead of using the          previous release if upgrades to new releases are not
  system as a case management                successful.
  system where most aspects of the
                                         •   Remove the forms, letters, and templates from the
  examination process could be
                                             functions’ shared drawers to encourage use of
  completed and reviewed.
                                             similar documents within the System.
                                         •   Establish set standards (e.g., number of days) to
                                             complete activities (i.e., assign, review, and close)
                                             within the TREES.
  Many employees were                    •   Establish guidelines to reduce the amount of paper
  maintaining both paper and                 being maintained Division-wide.
  electronic case files. Some of
                                         •   Require TE/GE Division managers to review the
  this duplication of data were at
                                             electronic files in the System to support a paperless
  the request of the manager.
                                             environment and to promote storing the case files
                                             electronically in one centralized location.
  Additional guidance is needed          •   Provide additional guidance relating to the type of
  relating to the type of                    information that should and should not be included
  information that should be                 in the examination workpapers. This guidance will
  included in the examination                help to identify what type of information should be
  workpapers.                                stored electronically on the TREES.


                                                                                           Page 17
                               Additional Actions Are Needed to Realize Benefits
                                  of the Tax Exempt and Government Entities
                                 Reporting and Electronic Examination System



              Issue Identified                           Potential Opportunities for Improvement
      Most users lacked access to                   •   Purchase scanners.
      scanners to convert paper files
                                                    •   Determine whether scanned signatures are
      into an electronic format.
                                                        acceptable for legal proceedings.
      Employees expressed their                     •   Communicate to users where the System is as of
      frustrations with the System and                  today and provide realistic timelines of what
      need for reeducation.                             capabilities the TE/GE Division can expect in the
                                                        near future.
                                                    •   Provide additional training Division-wide on the
                                                        current capabilities of the System and significant
                                                        capabilities that are added to the System.
      TE/GE Division examination                    •   Educate users on how to the use the TREES to
      functions are maintaining and                     reconcile inventory.
      reconciling multiple inventory
      tracking systems.                             •   Retire the other inventory tracking systems used by
                                                        the TE/GE Division to eliminate duplication of
                                                        effort.
      Users perceived that access to                •   Assess permissions assigned to employees to
      the TREES case library 1 was too                  ensure users can efficiently complete their assigned
      limited.                                          tasks. For example, consider allowing for multiple
                                                        user profiles (i.e., allowing a secretary to access the
                                                        inventory of more than one group).
                                                    •   Provide users with specific procedures and/or
                                                        written policy with regard to permissions and
                                                        access to the case library.




1
    The case library refers to a central electronic warehouse of all TE/GE Division open and closed examination cases.
                                                                                                             Page 18
                            Additional Actions Are Needed to Realize Benefits
                               of the Tax Exempt and Government Entities
                              Reporting and Electronic Examination System



            Issue Identified                        Potential Opportunities for Improvement
    Although the System has the                •    Reeducate users to use the System to establish and
    ability to automatically create                 build examination case files automatically to reduce
    cases and build the examination                 paper and maximize use of limited resources.
    case files using data from
                                               •    Provide additional training on an efficient way to
    another IRS computer system,
                                                    post returns and documents into the System.
    some offices manually created
    cases on the System and                    •    Evaluate whether tax returns may be electronically
    manually built their examination                extracted from other IRS sources in an efficient
    cases (returns and research data)               way to automatically bring returns directly into the
    either on the System or in a                    System.
    paper file.
    Some offices are including                 •    Establish consistent policy and guidelines
    activities other than                           Division-wide on what type of data should be
    examinations on the System.                     maintained on the System to ensure that the System
    Specifically, compliance checks,                is used as the central electronic warehouse for all
    customer assistance, and                        TE/GE Division compliance and education and
    education and outreach activities               outreach data. With consistent data,
    are included in the TREES for                   TE/GE Division management will be able to use
    some of the business units; other               the TREES to accurately assess compliance and
    business units do not include                   education and outreach activities and efficiently
    these activities.                               allocate resources.
    TE/GE Division examination                 •    Assess whether data from all the
    functions maintain other                        TE/GE Division-wide independent databases can be
    databases outside of the TREES.                 uploaded into the System to efficiently manage
                                                    resources.
    Although the TE/GE Division                •    Reemphasize to the users the need to use the
    developed a uniform way of                      required naming conventions.
    identifying and naming
                                               •    Require users to bring in their files at the beginning
    individual examination
                                                    of the examination using the required naming
    workpapers on the TREES, it is
                                                    conventions and work within the System.
    not being used consistently.
Source: TIGTA analysis of interviews with TREES users and System personnel.




                                                                                                  Page 19
        Additional Actions Are Needed to Realize Benefits
           of the Tax Exempt and Government Entities
          Reporting and Electronic Examination System



                                                    Appendix V

Management’s Response to the Draft Report




                                                            Page 20
Additional Actions Are Needed to Realize Benefits
   of the Tax Exempt and Government Entities
  Reporting and Electronic Examination System




                                                    Page 21
Additional Actions Are Needed to Realize Benefits
   of the Tax Exempt and Government Entities
  Reporting and Electronic Examination System




                                                    Page 22
